      On August 24, 1990,     -
                              Closeout of OIG 90-3139

                                              of y l e g e d that
      an article published in --aleading scientific week y falsely and
      unjustifiably attributed certain research results froi his
      laboratory to deliberate acts of misconduct. The complainant
      wanted some impartial body such as the NSF Office of Inspector
      General to look into correcting the alleged misrepresentations
      made about him, his co-workers and his work.      -.
      NSF does not provide support for the research project(s) reported
      on in the article. Further, the complainant has no active
      proposals or awards currently with NSF.
      Under the circumstances, we are closing this matter for lack of
      jurisdiction.




      25 September 1990



      cc: Inspector General
Ot-   F LL-4       ?/21;/qo
